Audit of Potential Conflicts of Interest in
USAID/Ghana’s Contracting and Managing of
USAID-Financed Activities

7-641-03-002-P
February 28, 2003




                    Dakar, Senegal
February 28, 2003


MEMORANDUM

TO:            Sharon Cromer, Director, USAID/Ghana

FROM:          Lee Jewell III, RIG/Dakar /s/

SUBJECT:       Audit of Potential Conflicts of Interest in USAID/Ghana’s
               Contracting and Managing of USAID-Financed Activities (Report
               No. 7-641-03-002-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included those
comments, in their entirety, as Appendix II to this report.

The report contains two recommendations. Based on your response to the draft
report, we consider that management decisions have been reached and appropriate
action taken by the Mission on both recommendations. Both recommendations are
therefore considered closed upon issuance of this report. No further action is
required of the Mission.

I appreciate the cooperation and courtesies extended to my staff during the audit.




                                                                                     1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                       5
Contents
           Background                                                                5

           Audit Objective                                                           6

           Audit Findings                                                            6

                   Do USAID/Ghana’s files and other records reflect any potential
                   conflicts of interest in the contracting and managing of
                   USAID/Ghana’s programs?                                           6

                      Conflict of Interest Certifications Not Obtained               8

                      Documentation Not Maintained for Ethics Training               8

           Management Comments and Our Evaluation                                   10

           Appendix I – Scope and Methodology                                       11

           Appendix II – Management Comments                                        13




                                                                                         3
(This page intentionally left blank)




                                       4
Summary of
Results
             U.S. government employees are strictly prohibited from participating in activities
             involving conflicts of interest and are required to avoid even the appearance of
             conflicts of interest when serving in an official government capacity. The issue of
             conflicts of interest has become increasingly important for USAID as the Agency
             relies more and more on contractors to implement, design, and evaluate USAID
             financed projects. (See pages 5-6)

             The Regional Inspector General, Dakar conducted this audit to determine if
             USAID/Ghana’s files and other records reflect any potential conflicts of interest
             in the contracting and managing of its programs. To answer this audit objective,
             we identified and examined the controls that the Mission uses to reduce the risk of
             actual or potential conflicts of interest and reviewed documentation relating to a
             sample of USAID recipients to determine whether any improper personal or
             familial relationships existed. (See pages 6-7)

             We found that USAID/Ghana’s files and other records did not reflect any
             potential or actual conflicts of interest in contracting or managing its programs.
             Nevertheless, we noted weaknesses in the controls that the Mission uses to avoid
             or mitigate the risk of potential situations of conflicts of interest. We recommend
             that the Mission obtain signed conflict of interest certifications for all members
             serving on technical evaluation committees as required by its internal policies and
             USAID regulations. We also recommend that the Mission document and
             maintain up-to-date records of its ethics and other training relating to conflicts of
             interest. (See pages 7-9)


Background   One of the most sensitive and high-risk areas of fraud within USAID programs is
             collusion for personal gain between USAID employees and USAID recipients
             including vendors, grantees, and contractors. This high-risk area has become
             increasingly important over recent years as USAID relies more and more on
             contractors, not only to implement projects, but also to design, evaluate and audit
             them. This mounting reliance on contractors has led to issues of conflicts of
             interest or the appearance of such conflicts. The maintenance of the highest
             standards of honesty, integrity, impartiality, and conduct by U.S. government
             employees is essential to assure the proper performance of the U.S. government
             business and the maintenance of confidence in U.S. supported activities.


             The Office of Government Ethics requires annual ethics training for federal
             employees. At USAID, U.S. direct hires and personal service contractors must
             attend the training if they are 1) presidential appointees, 2) persons who file either




                                                                                             5
                  a Public Financial Disclosure or a Confidential Financial Disclosure form or 3)
                  contracting and procurement officials. It is strongly suggested that all USAID
                  employees participate in the training. At USAID/Ghana, the regional legal
                  advisor from USAID/Senegal is responsible for conducting the annual training
                  sessions.


Audit Objective   The Regional Inspector General, Dakar (RIG/Dakar) conducted this audit, as part of
                  its annual audit plan for fiscal year 2002, to answer the following audit objective:

                  Do USAID/Ghana’s files and other records reflect any potential conflicts of
                  interest in the contracting and managing of USAID/Ghana’s programs?

                  Relating to this objective and to mitigate situations of potential conflicts of
                  interest, USAID directives require contracting officers to: (1) take reasonable
                  action to avoid conflicts of interest on the part of technical evaluation team
                  members, or their spouses or dependents; and (2) refer any potential problems to
                  the cognizant Regional Legal Advisor. Additionally, USAID’s Automated
                  Directives System states that the agreement officer, the individual legally
                  responsible for the award, shall take steps to ensure that members of the
                  evaluation committee, both USAID staff and outside evaluators, do not have any
                  conflicts of interest with regard to the organizations whose applications they will
                  be reviewing.

                  The scope and methodology used to conduct this audit is included in Appendix I of
                  the report.


   Audit          Do USAID/Ghana’s files and other records reflect any potential conflicts of
   Findings       interest in the contracting and managing of USAID/Ghana’s programs?

                  USAID/Ghana’s files and other records do not reflect any potential or actual
                  conflicts of interest in contracting or managing its programs. However, we noted
                  weaknesses in the controls, associated with the audit objective, that the Mission
                  uses to avoid or mitigate the risk of potential situations of conflicts of interest.

                  As a result of our analyses, we found no instances in which Mission employees
                  were related to USAID grantees, contractors, or vendors. Based on interviews
                  with Mission staff, it appeared that USAID/Ghana employees understood the
                  importance of remaining vigilant in guarding against conflicts of interest when
                  serving in an official Mission capacity.

                  The Standards of Ethical Conduct for Employees of the Executive Branch contain
                  general provisions prohibiting any action by a federal employee that would create
                  even the appearance of using public office for private gain or loss of impartiality.




                                                                                                6
USAID’s Automated Directives System (ADS) 303.5.5C specifically states that
any individual, whether federal employee or non-federal employee, who reviews
and evaluates any assistance application in conjunction with USAID-financed
programs shall not have a conflict of interest. ADS 302.5.13 (b) further requires
Contracting Officers to: (1) take reasonable action to avoid conflicts of interest on
the part of technical evaluation committee (TEC) members, or their spouses or
dependents; and (2) refer any potential problems to the cognizant Regional Legal
Advisor (RLA). Additionally, ADS guidance states that the agreement officer,
the individual legally responsible for the award, shall take steps to ensure that
members of the evaluation committee, both USAID staff and outside evaluators,
do not have any conflicts of interest with regard to the organizations whose
applications they will be reviewing.

In addition to federal and USAID regulations governing organizational conflicts
of interest, criminal statute Title 18 of the U.S. Code Section 208 prohibits
employees from participating “personally and substantially”1 in any particular
financial matter(s) in which they have financial interests. For the purpose of this
legal statute, financial interest is considered to be the same as that of the
employee, for the following:

   Employee’s spouse and minor children.
   The employee’s general partner.
   An organization or entity in which the employee serves as an officer, director,
    trustee, general partner, or employee.
   A person with whom the employee is negotiating for or has an arrangement
    concerning prospective employment.

The Mission managed conflicts of interest primarily by (1) providing ethics
information and training to its employees and (2) requiring certifications from
employees serving on technical evaluation committees for procurement activities.
The Mission also provided employees with copies of the booklet Standards of
Ethical Conduct for Employees of the Executive Branch, which described in detail
the components of what constitute conflicts of interest.

However, we noted weaknesses in the control areas relating to conflicts of interest
certifications and training. First, the Mission’s files did not include conflict of
interest certifications for all TEC members who reviewed contract proposals as
required by its own internal policy and procedures. Secondly, the Mission could
not provide documentation evidencing the completion of training relating to
conflicts of interest. These weaknesses are detailed below.


1
  “Participating personally and substantially in a Federal agency procurement” means active and
significant involvement of the individual in any of the activities relating to developing the
statement of work, drafting of the solicitation, selection of the source, negotiations of contract
terms, or approving the award of the contract (Federal Acquisition Regulation subpart 3.1).



                                                                                              7
USAID/Ghana Needs To Obtain Conflict of
Interest Certifications to Ensure Compliance

The procurement function is one of the areas in which the Mission faces the
highest potential for conflicts of interest. The procurement function supports all
of the Mission’s strategic objective teams and procures technical services from
various contractors to assist USAID/Ghana in achieving its development
objectives. To control this risk in the procurement function, the Mission requires
conflict of interest certifications.

For three of the five contracts that we selected, conflict of interest certification
statements were not obtained and documented in the procurement contract files.
Automated Directives System (ADS) E302.5.13 and USAID Acquisition
Regulation 715.305 require the Mission to obtain certifications from non-
government evaluators (NGE) who serve and review contract proposals on
technical evaluation committees. These certifications state that the evaluator
perceives no actual or potential conflicts of interest. We found that the Mission’s
internal guidance, USAID/Ghana’s Guidelines for Technical Evaluations,
requires NGEs, as well as its own employees, to sign such a certification when
they participate on technical evaluation committees to review contract proposals.
Extending the use of the certification beyond NGEs is a positive and proactive
step taken by the Mission, which reaffirms its commitment to avoiding conflict of
interest situations.

Nevertheless, the Mission did not obtain signed conflict of interest certifications
for NGEs and Mission employees serving on technical evaluation committees.
This situation occurred because the Mission did not follow its own internal
policies and procedures and USAID regulations, which require certifications for
all TEC members. In order for controls to be effective and guard against potential
or actual situations of conflict of interest, they must be adhered to and consistently
implemented by the Mission. The Mission cannot be certain that all members
serving on evaluation committees have no potential or actual conflicts of interest
when members do not certify in writing that no such conflicts of interest exist.

       Recommendation No. 1: We recommend that USAID/Ghana
       implement procedures to obtain signed conflict of interest
       certifications for all members serving on technical evaluation
       committees.

USAID/Ghana Needs to Maintain Documentation
As Evidence for Ethics and Other Related Training

Providing training and information relating to conflicts of interest and standards
of conduct within the federal government is another important control used by the
Mission to guard against potential or actual conflicts of interest. In accordance




                                                                                8
with USAID/Ghana’s Mission Operations Manual, Chapter 1000: Personnel
Management, the Mission should maintain up-to-date records of all completed
Mission personnel training. Despite this requirement, the Mission could not
provide documentation evidencing the completion of the ethics and other related
training.

The ethics training is required each year for employees and contractors who are
presidential appointees, contracting and procurement officials, or those employees
required to file one of the financial disclosure forms. The RLA from
USAID/Senegal generally conducts the sessions at USAID/Ghana. In addition to
submitting documentation to Washington evidencing the completion of the
training, the Mission should also maintain such documentation in its files. During
interviews with the RLA and Mission staff at USAID/Ghana, it was asserted that
the staff had participated in ethics training. However, the Mission could not
provide a list documenting the employees who attended the ethics training or
other evidence, such as training certifications, to support the recent ethics training
held at USAID/Ghana. A limited review of the personnel files revealed training
certification for certain employees for 1998 only.

As part of the Cognizant Technical Officers (CTO) certification program, the
Mission also provides training to staff that includes a segment on standards of
conduct and conflicts of interest in contract management. This training is either
held at USAID/Ghana or offsite at another location. During the audit, the Mission
could not provide adequate documentation for the CTO training held at offsite
locations. For such training, supporting evidence such as training certifications or
an attendance sheet was not maintained in the Mission’s files. Instead, the
training records were updated through verbal or written confirmation from
Mission employees. The Mission stated that employees were responsible for
maintaining their own certifications for the CTO training. The Mission did,
however, maintain supporting documentation such as the attendance list for the
CTO training held at USAID/Ghana.

Mission staff participated in ethics and other related training. Nevertheless, the
Mission could not always provide sufficient evidence such as an attendance list or
copies of training certifications to support the completion of the training. This
occurred because USAID/Ghana did not follow its internal policies and
procedures, which required the Mission to document and maintain up-to-date
records for Mission training. Without supporting documentation, we could not
determine with certainty whether the training was held, when the training was
held, or who attended.

       Recommendation No. 2: We recommend that USAID/Ghana enforce
       its internal policies and procedures by maintaining copies of training
       attendance lists and certifications to support completion of ethics and
       Cognizant Technical Officers training.




                                                                                9
Management      In response to the draft report, USAID/Ghana agreed with all of the findings and
                recommendations in the draft audit report. Based on appropriate action taken by
Comments and    the Mission, all recommendations are considered closed upon the issuance of the
Our valuation   final report.

                Recommendation No. 1 asks that the Mission implement procedures to obtain
                signed conflict of interest certifications for all members serving on technical
                evaluation committees (TEC). The Mission concurred with this recommendation
                and will instruct the Cognizant Contracting Officer to establish procedures to
                ensure that all TEC members sign the required Conflict of Interest Certification
                and the Procurement Integrity Statement when the TEC meets. Certifications will
                be obtained from the committee chairperson and included in the contract file. The
                Guidelines for Technical Evaluation for all future procurements will include the
                following statement: “The Chairperson will provide the Contracting Officer with
                a completed Conflict of Interest Statement, signed by each TEC member, prior to
                the evaluation of the proposal by the TEC.” In addition, procedures will be
                established to ensure that copies of the required form, noted in USAID automated
                directives system E302.5.13, and the guidelines to facilitate the completion of
                certifications are provided to the TEC members prior to the first meeting.

                Recommendation No. 2 asks that the Mission enforce its internal policies and
                procedures by maintaining copies of training attendance lists and certifications to
                support completion of ethics and Cognizant Technical Officers (CTO) training.
                The Mission concurred with the recommendation and has instructed the
                USAID/Ghana Personnel Office, under the direction of the Executive Officer, to
                maintain copies of all CTO and Ethics training attendance documents in the
                individual personnel files of each employee.




                                                                                            10
                                                                                         Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General, Dakar (RIG/Dakar) conducted this audit in
              accordance with generally accepted government auditing standards at
              USAID/Ghana in Accra, Ghana from October 15 through 30, 2002. We
              performed this audit to identify potential conflicts of interest in USAID/Ghana's
              contracting and managing of USAID-financed activities. The audit covered
              USAID/Ghana fiscal year (FY) 2001 disbursements of approximately $52 million,
              for both program and operating expenditures, and advances of $3.6 million2. Our
              audit population included all vendor disbursement data from the Mission
              Accounting Control System (MACS) reports of USAID/Ghana for FY 2001.
              Collaborative vendor information was obtained from outside USAID/Ghana
              through visits to the Ghana Chamber of Commerce and the Registrar General's
              Office. The findings and conclusions drawn from this audit are limited to the
              responses of the actual individuals interviewed and the sample data tested.

              Methodology

              Our audit procedures comprised of two major methodology segments − the
              internal controls assessment segment and the vendors/personnel data matching
              and review segment − to determine the potential for or existence of conflicts of
              interest situations.

              In the first segment, we reviewed the Mission’s internal control assessment
              reports to identify any material weaknesses with regard to the Mission’s
              monitoring of conflicts of interest exposure. We interviewed selected key
              members of the Mission staff, including the Executive Officer, the Controller, the
              Regional Contracting Officer and the strategic objectives team leaders and their
              key assistants, some of which were Cognizant Technical Officers. These
              interviews were performed to assess their understanding of, and to verify and
              document the Mission’s compliance with, USAID’s regulations pertaining to the
              avoidance of situations involving conflicts of interest. We requested from the
              responsible Mission personnel evidence of staff ethics training and certifications
              signed by members of technical evaluation committees to indicate their freedom
              from conflicts of interest vis-à-vis the bidders they evaluated. Based on these
              procedures, we arrived at a conclusion regarding the adequacy of the Mission's
              internal controls surrounding potential conflicts of interest.

              In segment two of our procedures, the primary methodology employed was
              comparing contractor, grantee, and vendor data against Mission employee data to
              disclose any situations that would point to possible employee conflicts of interest.
              To facilitate this comparison, we developed employee and vendor databases using

              2
              The amounts for disbursements and advances were derived from MACS and are unaudited.



                                                                                                 11
Mission and external sources. We then compared fields between the databases to
identify any similarities.

For the vendor database, we obtained from the Controller's office all
disbursements made by the Mission in fiscal year 2001 as recorded in MACS.
With the help of the Controller's staff, we eliminated disbursements pertaining to
U.S.-based organizations, employee salaries, personal service contracts, and
recurring obligations such as utilities and other obvious non-local vendor
payments. We then sorted this universe of local vendor database from the largest
to the smallest cumulative annual disbursement. Upon completion of the
fieldwork in Accra, we discovered that the disbursement data included trust funds
recorded in local currencies instead of U.S. dollars. The Mission inadvertently
failed to disclose to us during the fieldwork that trust funds were included in the
total disbursements. We manually adjusted the trust funds figures to reflect U.S.
dollar equivalent.

From this database totaling 225 vendors, we selected a sample of 30 comprised of
the following vendors: (1) ten judgmentally selected and (2) 20 randomly
selected, using IDEA software. Using the selected USAID vendor files and
vendor profile information obtained from the Ghana Chamber of Commerce and
the Registrar General's office, we created a vendor database, including the vendor
name, principals, street addresses, post office box numbers, and telephone
numbers.

In developing the employee database, we reviewed USAID/Ghana employee
personnel files and extracted data, including employee name, address, post office
box, telephone number, names of relatives, and their post office boxes and
telephone numbers. Based on discussions with the Executive Officer and our
review of job descriptions, we identified and eliminated certain employees, such
as janitors and drivers, who would generally have a minimal role in USAID
transactions with vendors.

Finally, we compared name, telephone number, street address and post office box
fields in the two databases for matches, using IDEA software. For those
similarities identified between the two databases, we performed additional audit
work, including interviews.

Due to the difficult nature of detecting conflicts of interest, we judged the audit
risk to be high. Given that conflict of interest is regulated by U.S. criminal
statutes and even one instance of conflict of interest could have severe negative
consequences on the Mission's ability to accomplish its development goals, we
considered any conflict of interest situation to be a material weakness.




                                                                            12
                                                                                         Appendix II

Management
USAID Mission
Comments




                                                                USAID Mission to Ghana
                                                                         Memorandum
                                                   January 9, 2003

TO:           Lee Jewell III, RIG/Dakar

FROM:         Sharon Cromer, Mission Director /s/
              USAID/Ghana

SUBJECT:      Draft Audit of Potential Conflict of Interest in USAID/Ghana’s Contracting and
              Managing of USAID-Financed Activities (Report No. 7-641-03-00X-P)


The purpose of this memorandum is to provide Mission comments on the two audit findings and
recommendations stated in the draft subject audit.

Recommendation No. 1 – “We recommend that USAID/ Ghana adhere to its internal policies and
USAID regulations by issuing a memo or implementing procedures to ensure that signed conflict of
interest certifications are obtained for all members serving on technical evaluation committees.”

Mission Response – Mission concurs that a signed certification should be obtained and documented in
all contract files for Technical Evaluation Committee (TEC) members. The cognizant Contracting
Officer will establish procedures to ensure that all TEC members sign the required Conflict of Interest
Certification and the Procurement Integrity Statement when the TEC committee meets. Certifications
will be obtained from the committee chairperson and included in the contract file. The “Guidelines for
Technical Evaluation” for all future procurements will include the following statement: “The
Chairperson will provide the Contracting Officer with a completed Conflict of Interest Statement, signed
by each TEC member, prior to the evaluation of the proposal by the TEC”. In addition, procedures will
be established to ensure that copies of the required form, noted in ADS E302.5.13, and the guidelines to
facilitate the completion of certifications are provided to the TEC members prior to the first meeting.

Recommendation No. 2 – “We recommend that USAID/Ghana enforce its internal policies and
procedures by documenting with appropriate evidence and maintaining up-to-date records for its Ethics
and Cognizant Technical Officers (CTO) Training.”




                                                                                                 13
Mission Response - Mission concurs with the recommendation that ethics and CTO training should be
documented in accordance with established policies and procedures. USAID/Ghana has hosted a
number of CTO training courses and provides ethics training to staff on an annual basis.      The
USAID/Ghana personnel office, under the direction of the EXO, will maintain copies of all CTO and
Ethics training attendance documents in the individual personnel files of each employee.




                                                                                           14
